                  U.S. Department of Agriculture

                     Office of Inspector General
                                Northeast Region




         Audit Report

    Food and Nutrition Service
Purchase Card Program Operations




                        Report No. 27401-28-Hy
                                     May 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:           May 21, 2004

REPLY TO
ATTN OF:        27401-28-Hy

SUBJECT:        Food and Nutrition Service Purchase Card Program Operations

TO:             Roberto Salazar
                Administrator
                Food and Nutrition Service

ATTN:           Lael Lubing
                Director
                Grants Management Division


This report presents the results of our audit of the Food and Nutrition Service (FNS) purchase
card operations. This audit was discussed with members of your staff on March 24, 2004.
During our review of over 1,800 transactions, nothing came to our attention to cause us to
believe that the system of management controls was not effective and operating as designed.
Thus, the report contains no recommendations and a response by FNS is not required. The report
is final upon issuance.

We appreciate the cooperation and assistance provided to the Office of Inspector General staff
during this review. If you have any questions, please have a member of your staff contact
Rebecca Anne Batts, Regional Inspector General for Audit, at (301) 504-2100 or
Joseph A. Marchowsky, Assistant Regional Inspector General for Audit, at (301) 504-2102.


        //s//

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Food and Nutrition Service Purchase Card Operations (Audit Report No. 27401-28-Hy)

Results in Brief    The objective of the audit was to determine whether the Food and Nutrition
                    Service (FNS) had established effective controls over the authorization and
                    execution of purchase card and convenience check transactions for fiscal year
                    (FY) 2003. Specifically, we assessed: (1) the controls established by FNS
                    over purchase card program operations; (2) compliance with Departmental
                    and FNS policies; and (3) whether transactions were properly authorized,
                    completed, and executed for permissible purchases. To accomplish this, we
                    identified the polices and procedures issued, reviewed agency operations to
                    assess whether controls were operating as designed, and reviewed samples of
                    FY 2003 transactions for potentially fraudulent, improper, abusive or
                    questionable purchases.

                    We reviewed over 1,800 of the 9,300 purchase card and convenience check
                    transactions that occurred during FY 2003. Of over $3 million in FY 2003
                    expenditures, we reviewed transactions valued at over $1.1 million. Nothing
                    came to our attention to cause us to believe that the system of management
                    controls over the FNS’ purchase card operations was not effective and
                    operating as designed. As a result, we are making no recommendations to
                    FNS.




USDA/OIG-A/27401-28-Hy                                                                    Page i
Table of Contents

Executive Summary ................................................................................................................i

Background and Objectives..................................................................................................1

Findings and Recommendations ..........................................................................................3

Scope and Methodology........................................................................................................4




USDA/OIG-A/27401-28-Hy                                                                                                    Page ii
Background and Objectives
Background                        The FNS purchase card program is part of the Governmentwide Commercial
                                  Purchase Card Program. Government purchase cards, a type of credit card,
                                  simplified the process of making small purchases. The Federal Acquisition
                                  Regulation (FAR), Part 13,1 established Governmentwide criteria for using
                                  purchase cards to place orders and make payments. Federal employees use
                                  purchase cards to make small purchases; this replaces part of the previous
                                  existing paper intensive procurement process. The US Department of
                                  Agriculture (USDA) purchase card is a commercially issued VISA credit
                                  card, which authorizes the cardholder to buy goods and services under an
                                  established delegation of authority.

                                  The use of purchase cards has dramatically increased in past years, as
                                  agencies have sought to eliminate the bureaucracy and paperwork associated
                                  with making small purchases. The benefits of using purchase cards are lower
                                  costs and less paperwork for both the government and the vendor community.

                                  Within USDA, the Office of Procurement and Property Management in
                                  conjunction with the Office of the Chief Financial Officer, administers the
                                  USDA Purchase Card Program. Departmental Regulation 5013-6, “Use of the
                                  Purchase Card and Convenience Check” issued February 13, 2003,
                                  establishes that the purchase card will be used for supply and/or service
                                  procurements valued at or below the micro-purchase threshold, which
                                  FAR 2.101 established as $2,500 for a single transaction. In addition,
                                  purchase cards may be used by warranted procurement personnel2 for actions
                                  at or below the Simplified Acquisition Threshold (SAT). FAR 2.101
                                  established the SAT at $100,000 per transaction. Cardholders are also given a
                                  monthly credit limit in addition to the single purchase limit. Purchases can
                                  be made by either credit card or convenience check. The credit card is
                                  generally to be used for all purchases where the vendors will accept it.
                                  Convenience checks are used when the vendor will not or cannot accept the
                                  credit card.3

                                  FNS employs approximately 1,600 employees. About 600 of the employees
                                  are assigned to FNS headquarters, while the remaining staff is located in
                                  7 Regional and 69 field offices. The Contract Management Branch of the
                                  Management Division, located at FNS Headquarters, administers the
                                  purchase card program for the agency. In FY 2003, FNS had a total of
1
    The Department of Defense, the General Services Administration, and the National Aeronautics and Space Administration jointly
    issues the Federal Acquisition Regulation for use by executive agencies in acquiring goods and services.
2
    An USDA employee delegated contracting authority by a duly authorized appointing official. The warrant states the level of
    contracting authority delegated to the individual. Only warranted individuals may contractually bind USDA for transactions above the
    micro-purchase threshold.
3
    FNS has complied with the April 30, 2003, Departmental memorandum directing the elimination of convenience check usage by
    July 1, 2003.
USDA/OIG-A/27401-28-Hy                                                                                                         Page 1
                   88 cardholders nationwide. FNS had over 9,300 purchase card and
                   convenience check transactions with a cumulative value of about $3 million
                   in FY 2003.


Objectives         The objective of the audit of the FNS purchase card program was to
                   determine whether the agency had established effective controls over the
                   authorization and use of purchase card and convenience checks for FY 2003
                   transactions. Specifically, we assessed: (1) the controls established by FNS
                   over purchase card program operations; (2) agency compliance with
                   Departmental and FNS policies; and (3) whether transactions were properly
                   authorized, completed, and executed for permissible purchases.




USDA/OIG-A/27401-28-Hy                                                                  Page 2
Findings and Recommendations

                   We reviewed over 1,800 of the 9,300 purchase card and convenience check
                   transactions that occurred during FY 2003. Of over $3 million in FY 2003
                   expenditures, we reviewed transactions valued at over $1.1 million. Nothing
                   came to our attention to cause us to believe that the system of management
                   controls over FNS purchase card operations was not effective and operating
                   as designed. Accordingly, we are making no recommendations.




USDA/OIG-A/27401-28-Hy                                                                 Page 3
Scope and Methodology
          This audit was conducted in accordance with generally accepted government
          auditing standards. We assessed the purchase card activity for FY 2003.
          Fieldwork was performed from August 2003 to March 2004, at FNS National
          Headquarters in Alexandria, Virginia and Mid-Atlantic Regional Office
          (MARO) in Robbinsville, New Jersey. We selected MARO because this
          regional office had the largest purchase card activity outside of FNS’
          Headquarters.

          We determined the control environment by obtaining and assessing copies of
          Departmental and FNS issued policies and procedures for the purchase card
          program. This included reviewing Departmental Regulation 5013-6, “Use of
          the Purchase Card and Convenience Check,” and FNS “USDA Purchase Card
          Program/PCMS Quick Reference Guide for FNS/CNPP.”

          Our audit included reviewing the procedures for authorizing and canceling
          purchase cards. Additionally, we completed steps to identify dormant
          (under-used) cards. We reviewed the internal review reports of purchase card
          activities completed by FNS, to include reports regarding disciplinary action
          taken for abuse of purchase cards. We interviewed the agency’s program
          coordinators, two local agency program coordinators, and four cardholders,
          to determine and assess their understanding of their roles and responsibilities.

          Our review included an examination of transactions for fraudulent, improper,
          abusive, or questionable purchases. We examined over 1,800 transactions
          valued at approximately $1,100,000 for eight judgmentally selected
          cardholders at MARO and the FNS Headquarters. The sampled cardholders
          were the cardholders with the highest total of purchases in MARO. At FNS
          Headquarters, we examined the cardholders with the largest dollar value of
          transactions in the Financial Management Division, Special Nutrition
          Program Division, Information Technology Branch of the Management
          Division, and the three individuals with the largest dollar value of
          transactions in the Contract Management Branch of the Management
          Division. We reviewed each transaction to determine whether it was:

          •   Authorized by management;
          •   Supported by documentation;
          •   Within the cardholder’s purchase limit (including an examination for
              split transactions to circumvent transaction limitation controls); and
          •   for the purchase of permissible items or services.

          Also, we ensured that the eight cardholders had reconciled their accounts on
          a 30 day basis and that the cardholder’s supervisors had performed and
          documented monthly reviews of purchase card transactions.
                   In addition to the individual transaction examination for the
                   eight cardholders, we reviewed Purchase Card Management System
                   transaction listings for all other regional cardholders with cumulative
                   FY 2003 transactions exceeding $15,000. This examination included over
                   2,300 additional transactions with a cumulative value in excess of $938,000
                   from an additional 12 cardholders. We reviewed the listings for improper,
                   abusive, or questionable purchases. Specifically, we reviewed the transaction
                   description, the vendor name, and assessed whether each transaction was
                   within the cardholder’s purchase limit.




USDA/OIG-A/27401-28-Hy                                                                   Page 5
